                 U.S. Department of Agriculture
                     Office of Inspector General




      Audit Report
Food and Nutrition Service
 Financial Statements for
Fiscal Years 2010 and 2009




                         Audit Report 27401-35-Hy
                                   November 2010
                          United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250




DATE:         November 5, 2010

AUDIT
NUMBER:       27401-35-Hy

TO:           Julia M. Paradis
              Administrator
              Food and Nutrition Service

ATTN:         E. Stephen Butler
              Chief Financial Officer
              Food and Nutrition Service

FROM:         Gil H. Harden /s/
              Assistant Inspector General
                for Audit


SUBJECT:      Food and Nutrition Service Financial Statements for Fiscal Years 2010 and 2009

This report presents the results of our audit of the Food and Nutrition Service’s financial
statements for the fiscal years ending September 30, 2010 and 2009. The report contains an
unqualified opinion on the financial statements, as well as the results of our assessment of the
Food and Nutrition Service’s internal controls over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report. We appreciate the courtesies and cooperation extended to us by members of
your staff during our audit fieldwork and subsequent discussions. If you have any questions
regarding this report, please contact me at (202) 720-6945 or have a member of your staff
contact Donald Pfeil at (301) 504-2100.
Table of Contents


Executive Summary .................................................................................................1
Opinion on the Consolidated Financial Statements .............................................2
Internal Control Over Financial Reporting ..........................................................2
Compliance and Other Procedures ........................................................................3
Responsibilities .........................................................................................................4
Abbreviations ...........................................................................................................6
Exhibit A: Financial Statements .............................................................................7
Food and Nutrition Service Financial Statements for Fiscal Years
2010 and 2009

Executive Summary

Purpose
Our audit objectives were to determine whether the (1) financial statements present fairly, in all
material respects, in accordance with generally accepted accounting principles, the assets,
liabilities, and net position; net costs; changes in net position; and budgetary resources;
(2) internal control objectives for financial reporting were met; and (3) Food and Nutrition
Service (FNS) complied with laws and regulations for those transactions and events that could
have a direct and material effect on the financial statements. We also determined that the
Management Discussion and Analysis was materially consistent with the information in the
financial statements.

We conducted our audit at the FNS National Office in Alexandria, Virginia. We also performed
a site visit to the Federal Reserve Bank in Richmond, Virginia, and obtained information from all
FNS Regional Offices.

Results in Brief
In our opinion, FNS’ comparative financial statements for fiscal years 2010 and 2009, including
the accompanying notes, present fairly in all material respects, the assets, liabilities, and net
position of FNS as of September 30, 2010 and 2009; and its net costs, changes in net position,
and budgetary resources, in conformity with accounting principles generally accepted in the
United States of America.

In the section entitled “Internal Control over Financial Reporting,” we report that although FNS
reported no material weaknesses in its FY 2010 Federal Manager’s Financial Integrity Act, it did
report one control deficiency that was part of a Department-wide material weakness on
unliquidated obligations, which remains a control deficiency in FY 2010. FNS also reported that
the seven significant deficiencies, which were identified and reported on in FY 2009 relative to a
minor agency financial system, have been remediated.

In the section entitled, “Compliance with Laws and Regulations,” we report that FNS’ core
financial system is in substantial compliance with the Federal Financial Management
Improvement Act of 1996. We did report that the agency was not in full compliance with the
Improper Payments Improvement Act of 2002 and Executive Order 13520.




AUDIT REPORT 27401-35-Hy                                                                             1
Independent Auditor’s Report
Julia M. Paradis
Administrator
Food and Nutrition Service

Opinion on the Consolidated Financial Statements

We have audited the accompanying balance sheets of the Food and Nutrition Service (FNS) as of
September 30, 2010 and 2009, and the related statements of net cost, changes in net position, and
the combined statements of budgetary resources (herein afterward referred to as the “financial
statements”) for the fiscal years (FY) then ended. The financial statements are the responsibility
of FNS’ management. Our responsibility is to express an opinion on the financial statements
based on our audits.

We conducted our audits in accordance with standards generally accepted in the United States of
America (the standards applicable to financial audits are contained in Government Auditing
Standards issued by the Comptroller General of the United States), and the Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Audits, as amended. Those standards and OMB Bulletin 07-04, as amended, require that we
plan and perform the audits to obtain reasonable assurance that the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe our audits provide a reasonable basis for
our opinion.

In our opinion, the financial statements referred to above, present fairly, in all material respects,
the financial position of the FNS as of September 30, 2010 and 2009; and its net costs; changes
in net position; and budgetary resources for the year then ended, in conformity with accounting
principles generally accepted in the United States of America.

The information in FNS’ Management Discussion and Analysis and Required Supplementary
Information is not a required part of the consolidated financial statements, but is supplemental
information required by accounting principles generally accepted in the United States of America
and OMB Circular A-136. We have applied certain limited procedures, consisting primarily of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, express no opinion on
it.

Internal Control Over Financial Reporting

Our consideration of the internal controls over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
matters in the internal controls over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants significant

AUDIT REPORT 27401-35-Hy                                                                                2
deficiencies are deficiencies in internal control, or a combination of deficiencies, that is less
severe than a material weakness yet important enough to merit attention by those charged with
governance. Material weaknesses are deficiencies, or combinations of deficiencies in internal
control, such that there is a reasonable possibility that a material misstatement of the entities
financial statements will not be prevented, or detected and corrected, on a timely basis. Because
of inherent limitations in any system of internal control, misstatements due to error or fraud may
occur and not be detected.

FNS asserted through its FY 2010 Federal Manager’s Financial Integrity Act (FMFIA)
submission that although no material weaknesses were identified, it did identify one recurring
control deficiency that was part of a Department-wide material weakness on unliquidated
obligations. FNS also asserted that seven significant deficiencies identified in FY 2009 to an
agency financial system that processes transaction amounts immaterial to the overall FNS
financial reporting system have been remediated. Our tests of system vulnerabilities during the
FY 2010 audit confirmed FNS’ corrective actions. FNS has established a corrective action plan
as required by OMB Circular A-123 to address the issue of unliquidated obligations.

Compliance and Other Procedures

As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of FNS’ compliance as described in the
Responsibilities section of this report. The results of our tests disclosed two instances of
reportable noncompliance with other laws and regulations discussed in the Responsibilities
section of this report that are required to be reported under Government Auditing Standards and
OMB Bulletin 07-04, as amended. We found that although FNS has made significant progress
with the 2002 Improper Payments Improvement Act (IPIA), they are still not in full compliance
with its requirements regarding the design of program internal controls related to reporting
improper payments. The IPIA requires agency official to estimate erroneous payments for all
programs susceptible to significant improper payments. FNS has not reported the amount of
improper payments they expect to recover involving the Special Nutrition Assistance Program
(SNAP), the Special Supplemental Nutrition Program for Women, Infants, and Children (WIC),
the Child and Adult Care Food Program (CACFP), the National School Lunch Program (NSLP),
and the School Breakfast Program (SBP).

FNS reported estimated improper payments for SNAP, NSLP, and SBP. However, FNS has not
reported erroneous payment rates for WIC certification errors and CACFP verification errors.
As stated in the FNS Management Discussion and Analysis (MD&A), work is currently
underway to report on WIC certification errors. An estimate of erroneous payments associated
with WIC certification errors will be available in 2011. Regarding CACFP verification errors,
FNS has developed a methodology to randomly sample the results of State monitoring visits to
Family Day Care Homes (FDCHs) and follow up by observing the FDCHs or contacting parents
to corroborate the Family Day Care Sponsors’ child claimant reports. FNS has not established a
date for publishing the CACFP verification error estimate.

The IPIA also requires that agencies report the amount of erroneous payments the agency
expects to recover and how it will recover them. FNS has not reported the amount of improper

AUDIT REPORT 27401-35-Hy                                                                          3
payments they expect to recover for the SNAP, the WIC, the CACFP, the NSLP, and the SBP.
FNS explains in section 4 of its MD&A that the current statute only provides authority to recover
improper payments identified through reviews, audits, or other operational oversight activity.
FNS further explains that an estimated recovery target amount for the SNAP is not feasible
because claims collections are tied to the abilities of States to determine pursue and collect
erroneous payments.

As required by OMB Bulletin 07-04, as amended, with respect to internal controls related to key
performance measures as determined by management and reported in the MD&A, we obtained
an understanding of the design of significant internal controls related to the existence and
completeness assertions and determined if they had been placed in operation. Our procedures
were not designed to provide assurance on internal controls over reported performance measures.
Accordingly, we do not provide an opinion on such controls.

As further required by OMB Bulletin 07-04, as amended, we considered FNS’ internal controls
over Required Supplementary Stewardship Information (RSSI) by obtaining an understanding of
the internal controls, along with making a determination if those controls had been placed in
operation, assessing control risk, and performing tests of the controls. Our procedures were not
designed to provide assurance on internal controls over RSSI. Accordingly, we do not provide
an opinion on such controls.

This report is intended for the information and use by the management of FNS, and by OMB and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.

Additionally, the results of our tests disclosed no instances in which FNS’ financial management
systems did not substantially comply with the Federal Financial Management Improvement Act.

Responsibilities
Management’s Responsibilities

Management is responsible for the consolidated financial statements, establishing and
maintaining effective internal control, and complying with laws and regulations.

Auditor’s Responsibilities

The objective of our audit was to express an opinion on the fair presentation of the
accompanying financial statements. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America (the standards applicable to
financial audits are contained in Government Auditing Standards issued by the Comptroller
General of the United States); and OMB Bulletin 07-04, as amended, Audit Requirements for
Federal Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the financial statements. An audit also includes assessing the accounting

AUDIT REPORT 27401-35-Hy                                                                        4
principles used, and significant estimates made by management, as well as evaluating the overall
financial statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered FNS’ system of internal control over
financial statement reporting by obtaining an understanding of the design effectiveness of
internal controls, determining whether the internal controls had been placed in operation,
assessing control risk, and performing tests of controls in order to determine our audit procedures
for the purpose of expressing our opinion on the financial statements. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB 07-04, as
amended, and Government Auditing Standards. We did not test all internal controls as defined
by the Federal Managers Financial Integrity Act of 1982. The objective of our audit was not to
provide an opinion on FNS’ internal control. Accordingly, we do not provide an opinion on
internal controls over financial reporting.

As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of FNS’ compliance with certain provisions of laws
and regulations, contracts and agreements, and Governmentwide policy requirements where
noncompliance could have a direct and material effect on the determination of the financial
statement amounts. We also obtained reasonable assurance that FNS complied with certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as amended,
including requirements referred to in the Federal Financial Management Improvement Act of
1996, except for those that, in our judgment, were clearly inconsequential. We limited our tests
of compliance to the provisions described in the preceding sentences and did not test compliance
with all laws and regulations applicable to FNS. However, providing an opinion on compliance
with laws and regulations was not an objective of our audit and, accordingly, we do not express
an opinion.



Gil Harden     /s/
Assistant Inspector General
 for Audit
November 5, 2010




AUDIT REPORT 27401-35-Hy                                                                         5
Abbreviations

CACFP           Child and Adult Care Food Program
FDCH            Family Day Care Home
FNS             Food and Nutrition Service
FY              Fiscal Year
IPIA            Improper Payment Improvement Act of 2002
MD&A            Management Discussion and Analysis
NSLP            National School Lunch Program
OMB             Office of Management and Budget
RSSI            Required Supplementary Stewardship Information
SBP             School Breakfast Program
WIC             Special Supplemental Nutrition Program for Women Infants, and Children




AUDIT REPORT 27401-35-Hy                                                             6
Exhibit A: Financial Statements




         FOOD AND NUTRITION SERVICE
             FISCAL YEARS 2010 and 2009
               FINANCIAL STATEMENTS
                     PREPARED BY FNS




AUDIT REPORT 27401-35-Hy                  7
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 MANAGEMENT DISCUSSION AND ANALYSIS




             MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA).
FNS was established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant
to the authority contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its
mission is to increase food security and reduce hunger in partnership with cooperating organizations by
providing children and low-income people access to food, a healthful diet, and nutrition education in a
manner that supports American agriculture and inspires public confidence.

The FNS annual appropriation for administrative funds includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research
to the nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination,
and nutrition education. CNPP develops integrated nutrition research, education, and promotion
programs and provides science-based dietary guidance.

FNS FY 2010 Organization Chart




                                                 Page 1 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




Descriptions of FNS Programs:
Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation has
gradually built an array of nutrition assistance programs designed to help the most vulnerable populations
meet their food needs. Taken together, the current programs form a nationwide safety net supporting low-
income families and individuals in their efforts to escape food insecurity and hunger and achieve healthy,
nutritious diets. Currently, the programs administered by FNS touch the lives of one in five Americans
over the course of a year.

The nutrition assistance programs described below works both individually and in concert with one
another to improve the Nation’s nutrition and health by improving the diets of children and low-income
households.

·   Supplemental Nutrition Assistance Program (SNAP): Authorized by the Food and Nutrition Act of
    2008, SNAP serves as the primary source of nutrition assistance for over 40.2 million low-income
    people. It enables participants, about 49 percent of whom are children, to improve their diets by
    increasing food purchasing power using benefits that are redeemed at authorized retail grocery stores
    across the country. State agencies are responsible for the administration of the program according to
    national eligibility and benefit standards set by Federal law and regulations. Benefits are 100 percent
    Federally-financed, while administrative costs are shared between the Federal and State
    Governments.

    SNAP provides the basic nutrition assistance benefit for low-income people in the United States;
    other FNS programs supplement this program with benefits targeted to special populations, dietary
    needs and delivery settings. (Puerto Rico, the Commonwealth of the Northern Mariana Islands and
    American Samoa receive grant funds with which to provide food and nutrition assistance in lieu of
    SNAP.)

·   Food Distribution Program on Indian Reservations (FDPIR): FDPIR distributes USDA-purchased
    foods as an alternative to SNAP for Indian households on or near reservations. State agencies and
    Indian Tribal Organizations (ITOs) that operate the program are responsible for certifying recipient
    eligibility, nutrition education, local warehousing and transportation of food, distribution of food to
    recipient households, and program integrity. The Federal Government pays 100 percent of the cost of
    commodities distributed through the program, and cash payments for administrative expenses.

·   Child Nutrition Programs (CNP): The Child Nutrition Programs - National School Lunch (NSLP),
    School Breakfast (SBP), Special Milk (SMP), Child and Adult Care Food (CACFP), and Summer
    Food Service (SFSP) - provide reimbursement to State and local governments for nutritious meals
    and snacks served to over 32 million children in schools, child care institutions, adult day care
    centers, and after school care programs. FNS provides cash and USDA purchased food on a per-meal
    basis to offset the cost of food service at the local level and a significant portion of State and local
    administrative expense, and provides training, technical assistance, and nutrition education.
    Payments are substantially higher for meals served free or at a reduced price to children from low-
    income families.


                                                 Page 2 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




·   Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum
    women, infants and children up to five years of age. It provides participants monthly supplemental
    food packages targeted to their dietary needs, nutrition education, and referrals to a range of health
    and social services – benefits that promote a healthy pregnancy for mothers and a healthy start for
    their children. Appropriated funds are provided to States for food packages and nutrition services and
    administration for the program; States operate the program pursuant to plans approved by FNS. WIC
    is augmented in some localities by the Farmers’ Market Nutrition Program, funded within the
    Commodity Assistance Program account, and authorized by the WIC Farmers’ Market Nutrition Act
    of 1992, which provides fresh produce to WIC participants.

·   The Emergency Food Assistance Program (TEFAP): This program supports the emergency food
    organization network by distributing USDA-purchased food for use by emergency feeding
    organizations including soup kitchens, food recovery organizations, and food banks. TEFAP also
    provides administrative funds to defray costs associated with processing, repackaging, storage, and
    distribution of Federal and privately donated food. The allocation of both Federal food and
    administrative grants to States is based on a formula that considers the States’ unemployment levels
    and the number of persons with income below the poverty level.

·   The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by
    USDA to low-income infants and children up to age six, low-income pregnant and postpartum
    women, and to low-income senior citizens. In recent years, there has been a shift towards low-
    income elderly in this program; in FY 2008, elderly participation comprised approximately 93 percent
    of total participation. Foods are distributed through State agencies to supplement food acquired by
    recipients from other sources. The CSFP is operated as a Federal/State partnership under agreements
    between FNS and State health care, agricultural or education agencies. Currently, 39 States, the
    District of Columbia, and two Indian reservations operate CSFP.

·   Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-
    income seniors that can be exchanged for fresh, nutritious, unprepared, locally grown fruits,
    vegetables and herbs at farmers’ market, roadside stands, and community-supported agriculture
    programs.

·   Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-
    affected zones of the Republic of the Marshall Islands in the form of USDA purchased food, or cash-
    in-lieu of food, and administrative funds and is authorized under the Compact of Free Association
    Amendments Act of 2003, (P.L. 108-188). Disaster relief funds are provided for use in non-
    Presidentially declared disasters.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local
organizations that interact directly with program participants. States voluntarily enter into agreements
with the Federal Government to operate programs according to Federal standards in exchange for
program funds that cover all benefit costs, and a significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national
program standards for eligibility and benefits, providing Federal funding to State and local partners, and
monitoring and evaluating to make sure that program structures and policies are properly implemented



                                                  Page 3 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




and effective in meeting program missions. State and local organizations are responsible for delivering
benefits efficiently, effectively, and in a manner consistent with national requirements.

FNS Staff:
The public servants of FNS are an important resource for advancing the key outcomes sought through the
nutrition assistance programs. The agency staff serves to ensure and leverage the effective use of the
other program appropriations.
Approximately 77percent of FNS staff is funded primarily out of the Nutrition Programs Administration
account, which represents approximately one-third of one percent of the total FNS budget. The balance
of the FNS staff is funded from program accounts. The agency employment level represents less than two
percent of the total employment within USDA and is similarly small in proportion to the total State-level
staff needed to operate the programs. The agency employs people from a variety of disciplines, including
policy and management analysts, nutritionists, computer and communication experts, accountants,
investigators, and program evaluators. Because of the small size of the agency’s staff relative to the
resources it manages, FNS has created clear and specific performance measures and must focus its
management efforts in a limited number of high-priority areas.
Program operations are managed through FNS’ seven regional offices and 65 field offices/satellite
locations. A regional administrator directs each regional office. These offices maintain direct contact
with State agencies that administer the FNS programs. The agency’s regional offices also conduct on-site
management reviews of State operations and monitor the nearly 200,000 stores authorized to redeem
SNAP benefits.
As of September 30, 2010, there were 1,349 full-time permanent employees in the agency. There were
522 employees in the Washington headquarters office; and 827 in the field, which includes seven regional
offices; 65 field offices; four SNAP compliance offices in Illinois, California, New Jersey, and
Tennessee; and a computer support center in Minneapolis, Minnesota. The chart below displays staff
year utilization.


                                                                2009          2010          2011
        Project                                                 Actual        Actual      Requested
        Supplemental Nutrition Assistance Program                    104           112            116
        Child Nutrition Programs                                     158           164            176
        Commodity Assistance                                            2             2             2
        Supplemental Nutrition Program _WIC                             _            22            22
        Nutrition Programs Administration                            977           999          1084
        Center for Nutrition Policy and Promotion                      28            34            43
        Total Available                                            1,269         1,333         1,443




                                                 Page 4 of 53
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                          MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goals and objectives are fully integrated into USDA’s Strategic Goal 4 with three related
Department Strategic objectives. Each Department Strategic Objective has a key outcome and indicator,
as discussed below.

USDA Strategic      USDA Strategic             Programs that
                                                                      Key Outcomes                Key Indicators
    Goal                Objective               Contribute1
                  USDA Strategic
                                                                  Key Outcome 1:
                  Objective 4.1:            SNAP, CN, WIC,                                     Program Participation
                                                                  Reduce hunger and
                  Increase Access to        CAP, FDPIR, TEFAP                                  Rates
                                                                  improve nutrition.
                  Nutritious Food
USDA Goal 4:
                  USDA Strategic                                  Key Outcome 2:
Ensure That All
                  Objective 4.2:            SNAP, CN, WIC         Promote more healthful
of America’s                                                                                   Nutrition Guidance
                  Promote Healthy                                 eating and physical
Children Have                                                                                  Distribution Volume
                  Diet and Physical         CNPP2                 activity across the
Access to Safe,
                  Activity Behaviors                              Nation.
Nutritious, and
                  USDA Strategic
Balanced Meals                                                    Key Outcome 3:
                  Objective 4.3:
                                            SNAP, CN, WIC         Maintain a high level of     SNAP Payment
                  Protect Public Health
                                                                  integrity in the nutrition   Accuracy Rate
                  by Ensuring Food is
                                                                  assistance programs.
                  Safe



STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN
HAVE ACCESS TO SAFE, NUTRITIOUS, AND BALANCED MEALS

Nutrition is the link between agriculture and the Nation’s health, and the Department made strong
progress in advancing our nutrition and health goal in 2010. USDA’s leadership of the Federal nutrition
assistance programs made a healthier diet available for millions of children and low-income families.
And the cutting-edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion
harnessed interactive technologies to motivate all Americans to make positive dietary behavioral changes
consistent with the Dietary Guidelines for Americans and the HealthierUS initiative. Key 2010
accomplishments include:

Promoting access to the Supplemental Nutrition Assistance Program (SNAP). Formerly the Food
   Stamp Program, SNAP is the Nation’s largest nutrition assistance program, serving a record high 40.2
   million people each month and growing. The latest information on the rate of participation among
   eligible people showed that in 2007, 66 percent of all who were eligible participated as compared
   with 54 percent in 2001.

Promoting Nutrition Education by Using the MyPyramid Food Guidance System. MyPyramid—a
   network of nutrition education tools that translates the Dietary Guidelines for Americans into
   understandable concepts for consumers—offers the American public an individualized approach to
   nutritional well-being and active living. MyPyramid.gov’s web-based educational tools help

1
  SNAP = Supplemental Nutrition Assistance Program (formerly the Food Stamp Program), CN=Child Nutrition (includes the
National School Lunch Program, the School Breakfast Program, and the Special Milk Program), WIC = Special Supplemental
Nutrition Program for Women, Infants & Children, CAP = Commodity Assistance Programs, FDPIR = Food Distribution
Program on Indian Reservations, TEFAP = The Emergency Food Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)

                                                       Page 5 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




    Americans assess and personalize their diet and physical activity plans. . The newest tool was the
    MyPyramid for Preschoolers (ages 2 to 5 years old) to help parents use MyPyramid to help their
    young children eat well, be active, and be healthy. Consumers continue to respond enthusiastically to
    this educational approach; thus, CNPP continues to develop new educational tools to promote
    nutrition education to specific population groups to help stem the trends in obesity and nutrition-
    related diseases. In 2010, MyPyramid.gov and other nutrition related web-based tools were accessed
    or used by over 3.5 billion times bringing the overall total since April 2005 to 7.5 billion.


Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate for
   FY 2009, announced in 2010, was 95.64 percent, a new record high that reflects effective partnerships
   with State administering agencies, and extensive use of policy options to streamline program
   adminstration while improving access for working families.


In FY 2010, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food
choices. In FY 2010, USDA pursued national policies and programs to ensure that everyone has access to
a healthy diet regardless of income, and that the information is available to support and encourage good
nutrition choices.

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. The research provides critical knowledge of
what we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner
that leads to true changes in our diets. Research also supports development of new healthy and tasty food
products providing another avenue for helping consumers eat well.

STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN HAVE ACCESS
TO SAFE, NUTRITIOUS AND BALANCED MEALS
OBJECTIVE 4.1: INCREASE ACCESS TO NUTRITIOUS FOODS
4.1.1 Participation levels for major Federal nutrition assistance programs SNAP.
       (Millions per month)

Overview

The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition
assistance program system. SNAP provides benefits that can be used to purchase food at authorized
retailers for preparation and consumption at home. It makes resources that can be used for food available
to most households with little income. Benefit levels are based on the Thrifty Food Plan, a representative
healthful and minimal cost meal plan that shows how a nutritious diet may be achieved with limited
resources. The benefit levels are adjusted based on the economic circumstances of participating
households.




                                                 Page 6 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




    Analysis of Results
    In FY 2010, the Department and its program delivery partners sustained effective access to SNAP.
    Average monthly participation reached 40.2 million in 2010, within the range (37.5 million-40.8 million)
    for the 2010 target of 40.5 million.

    Program participation increased almost 19 percent during FY 2010. USDA’s efforts to support and
    encourage SNAP participation included:
    · Continued efforts with States to develop outreach strategies. Forty-four out of 53 State agencies – up
       from 40 in FY 2009 -- now have formal outreach plans or other documented outreach activity;
    · Supported innovative State practices to promote access by simplifying the application process.
       Twenty-six States use an Internet-based application filing system. Nearly 30 States allow telephone
       interviews. Twenty-seven States use call centers;
    · Implemented the Defense Appropriations Act of 2010 to provide $400 million in administrative
       funding to States in further response to the downturn; and
    · Provided numerous strategies to help States manage workloads because of increasing participation
       and decreasing State resources due to the economic downturn. These strategies include policy
       waivers; a workload management matrix tool; a program access toolkit; and encouragement of broad-
       based categorical eligibility to improve access to applicants and simplify policies for State
       administration.

    USDA also estimates the number of people eligible for the program along with the rate at which eligible
    people are participating. The latest study shows that, in 2008, 67 percent of all persons eligible for SNAP
    participated. While the number of those eligible continued to grow rapidly in 2008, increasing by 5.5
    percent over the 2007 level, the number of participants increased by 7 percent. Also in 2008, participants
    received 84 percent of all benefits available if every eligible person participated. This number indicates
    that the program is effectively reaching those most in need.


 Annual Performance Goals, Indicators                2006        2007         2008         2009                 Fiscal Year 2010
             and Trends
                                                                                                       Target      Actual        Result
4.1.1 Participation levels for the major Federal       26.7       26.5        28.4            33.5        40.5         39.8          Met
         nutrition assistance programs (millions
         per month): Supplemental Nutrition
         Assistance Program Avg.(Monthly)
         participation (millions)
Rationale for Met Range: Thresholds for 4.1.1 reflect the margin of error in forecasts of future participation. For Supplemental Nutrition
Assistance Program (SNAP) participation, results from 2 independent assessments suggest that predictions of the number of SNAP
participants are accurate to within plus-or-minus 7.5 percent (on average). This reflects the pattern of variance between actual and target
performance during the past 5 years.
· For 2010, this percentage thus allows for actual performance that meets the target in the range (in millions) of 37.5-43.5 million for
   SNAP.
Data Assessment of Performance Measure 4.1.1
SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at FNS. If data are
reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, the FNS works with regional
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and

                                                               Page 7 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




 Annual Performance Goals, Indicators                2006       2007          2008         2009                Fiscal Year 2010
             and Trends                                                                               Target      Actual         Result
reliable as possible
   Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
before being declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1, 2010.
   Reliability of Data— The data are highly reliable. Participation-data reporting is used to support program financial operations. All of
the data are used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the
Government Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
   Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


    Challenges for the Future

    Studies and analyses show that one reason that SNAP-eligible people who do not participate are that they
    may not be aware of their eligibility. Efforts to improve access to and promote awareness of SNAP, and
    seek improvements in policy and operations that make applying easier are ongoing challenges.

    The quality of program delivery by third parties—hundreds of thousands of State and local Government
    workers and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition.
    Proper program administration, including timely determination of eligibility, is of special concern.

    4.1.2 Improve SNAP payment accuracy
    Overview

    Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is
    central to USDA’s mission. Waste and abuse draw scarce resources away from the children who need
    them the most. Just as importantly, the programs are ultimately not sustainable without public confidence
    that benefits go to those who qualify, are used appropriately, and achieve their intended purposes. The
    Department seeks to increase food security and reduce hunger in a manner that inspires public confidence
    that taxpayer dollars are used wisely.

    Designed to respond to economic conditions, participation in the program has recently grown and benefits
    have increased, yet USDA remains strongly committed to program integrity. The Department takes its
    stewardship responsibilities for tax payer dollars seriously through an established Quality Control (QC)
    system and long-standing support for payment accuracy initiatives. The Department continuously works
    to improve payment accuracy through partnerships with States, and regulatory and statutory requirements
    for a system that rewards exemplary program performance while holding low-performing States
    accountable. It also uses an early detection system to target States that may be experiencing a higher
    incidence of errors based on preliminary QC data. Actions then are taken by regional offices to address
    these situations in the individual States.

    Analysis of Results

    SNAP payment accuracy reached a record-high 95.64 percent in 2009, the latest for which data are
    available. The number reflects the excellent performance by State agencies in administering the program.
    This combined rate reflects 3.53 percent in overpayments and 0.83 percent in underpayments for a total of
    4.36 in erroneous payments.

                                                               Page 8 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




     Forty-seven States had a payment accuracy rate greater than 94 percent, including 29 States with rates
     greater than 96 percent. These figures are up from the 35 States with 94-percent accuracy and 15 with 96-
     percent accuracy the previous year.


  Annual Performance Goals, Indicators                2006        2007        2008          2009                 Fiscal Year 2010
              and Trends                                                                                 Target         Actual      Result
4.1.2    Improve SNAP Payment Accuracy Rate           94.2%      94.4%        94.3%         94.9%          95%            Not       Deferred
                                                                                                                        Available
FY 2010 data will be available in 2011.
Rationale for Met Range: The 95.0 percent confidence interval around the estimate of payment accuracy is ±.33.
· For 2010, this confidence level allows for actual performance that meets the target in the range 94.7-95.3 percent.
Data Assessment of Performance Measure 4.1.2
The Supplemental Nutrition Assistance Program (SNAP), formerly the Food Stamp Program, uses annual payment accuracy data from the
Quality Control (QC) process to support SNAP management. The data are based upon statistically valid methodology. The QC process
uses a systematic random sampling of SNAP participants to determine a combined payment error rate for each State. The combined error
rate is composed of over-issuances and under-issuances of SNAP benefits. A regression formula is applied to the results of the reviews to
calculate official error rates. State agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level
determination. The process includes a client interview and verification of all elements of eligibility and the basis of issuance. Federal
reviewers validate a sample of the State’s reviews by conducting a re-review. The process has proven to be a sound method of calculating
reliable data.
   Completeness of Data—The most current data available for this measure are for FY 2009. The payment accuracy rate of 95.6 percent
exceeded the performance goal/measure target. FY 2010 performance will be deferred until next year’s report.
   Reliability of Data— QC data are valid and accepted by State SNAP agencies as a basis for performance-incentive payments and
penalties. The U.S. Government Accountability Office and the Office of Inspector General also use it regularly.
   Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is frequently cited as an important, high-quality indicator of program performance.




     Challenges for the Future
     The most critical challenge impacting future success is continuing resource limitations for State agencies.
     State budgets have been and will continue to be extremely tight. This factor could hurt State performance
     in payment accuracy. USDA will continue to provide technical assistance and support to maintain
     payment accuracy in the context of this difficult program environment.



     4.1.3 Participation levels for the school meals programs (millions of children per
                      school day)
     Overview
     The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
     ensuring access to nutritious food for the children they serve. The programs provide per-meal
     reimbursement to State and local Governments for meals and snacks served. All meals must meet Federal
     nutrition standards to qualify for reimbursement.

     NSLP serves lunches and snacks in more than 101,000 schools and residential child-care facilities. More
     than 60 percent of meals are served to low-income children for free or at reduced price.

                                                               Page 9 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




    SBP helps school children start the day ready to learn by serving breakfast in more than 88,000 schools
    and residential child-care facilities. More than 80 percent of meals are served free or at reduced price to
    low-income children, with more than 75 percent of participating schools serving low-income areas.

    Analysis of Results
    In FY 2010, USDA and its program delivery partners sustained effective access to school meals. The
    increased use of direct certification for free school meals for children enrolled in means-tested programs
    such as SNAP or the Temporary Assistance for Needy Families (TANF) program has helped to provide
    easy access to school meal benefits. During the 2008-09 school year, 78 percent of school districts used
    direct certification, up from 67 percent in the prior year. TANF provides financial assistance for children
    and their parents or relatives who are living with them.

    NSLP participation levels reached 31.8 million in FY 2010; within the Met range (30.5 million-33.7
    million) for the 2010 target of 31.8 million. Participation increased slightly from FY 2009, continuing the
    trend of increases in recent years. SBP participation levels reached 11.6 million in FY 2010; within the Met
    range (11.1 million-12.3 million) for the 2010 target of 11.7 million. These numbers also continue a trend
    of increases during the last several years.

  Annual Performance Goals, Indicators                2006        2007         2008          2009               Fiscal Year 2010
              and Trends                                                                                 Target        Actual       Result
4.1.3   Participation levels for the school meals                                                                                      Met
        programs (millions)
 · National School Lunch Program                        30.1       30.5       30.9            31.6          32.1         31.7
     Avg.(Daily)
 · School Breakfast Program Avg. (Daily)                 9.8       10.1       10.6            11.0          11.7         11.7
Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 7.5 percent for
the school meals programs. This reflects the pattern of variance between actual and target performance for both programs during the past 5
years.
· For 2010, this percentage range allows for actual performance that meets the targets in the range of 30.5- 33.7 million for the National
   School Lunch Program and 11.1-12.3 million for the School Breakfast Program.
Data Assessment of Performance Measure 4.1.3
School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data
are reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
reliable as possible.
   Completeness of Data— Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and
validated monthly before being declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1,
2010.
   Reliability of Data— The data are highly reliable. Participation-data reporting is used to support program financial operations. All of
the data are used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the
Government Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
   Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.




                                                               Page 10 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




    Challenges for the Future

    While almost all school children have access to Federally-subsidized school lunches, significantly fewer
    schools operate SBP. USDA will continue to pursue strategies to ensure that all students are able to start
    the day with a nutritious breakfast, at home or at school.

    As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
    hundreds of thousands of State and local Government workers and their cooperators— to sustain effective
    school meals program delivery.

    4.1.4 Participation levels for the WIC program (millions per month)

    Overview

    The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical
    component of the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs
    of low-income pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age
    who are found to be at nutritional risk.


    Analysis of Results

    In FY 2010, average monthly WIC participation was approximately 9.2 million participants; within the
    Met range (9.2 million-9.8 million) for the 2010 target of 9.5 million. USDA continued to meet its
    ongoing commitment to provide sufficient program resources to support participation for all eligible
    people who apply for benefits.

    The Department also estimates the number of people eligible for WIC and calculates the rate at which
    eligible people are participating. The latest study shows that, in 2007, WIC served an estimated 59
    percent of the population eligible for benefits. This figure reflects participation by more than 80 percent
    of eligible infants, 66 percent of eligible pregnant women, more than 85 percent of eligible breastfeeding
    women, and 71 percent of eligible postpartum women.


  Annual Performance Goals, Indicators                 2006       2007         2008          2009                  Fiscal Year 2010
              and Trends                                                                                  Target       Actual        Result
4.1.4   WIC Program average monthly                     8.1         8.3         8.7            9.1           9.5          9.2         Met
        participation (millions)

Rationale for Met Range: Thresholds for 4.1.4 reflect the margin of error in forecasts of future participation, estimated at 7.5 percent for
the WIC program. This reflects the pattern of variance between actual and target performance for both programs over the past 5 years.
· For 2010, this percentage thus allows for actual performance that meets the target in the range of 9.2-9.8 million for WIC.
Data Assessment of Performance Measure 4.1.4
WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the
National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel
reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are
reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional

                                                               Page 11 of 53
                                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                              MANAGEMENT DISCUSSION AND ANALYSIS




  Annual Performance Goals, Indicators                2006       2007         2008          2009                Fiscal Year 2010
              and Trends                                                                                 Target       Actual       Result
offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
reliable as possible.
   Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
before being declared annual data. Reported estimates are based on data through April 30, 2010, as available July 1, 2010.
   Reliability of Data— The data are highly reliable. Participation-data reporting is used to support program financial operations. All of
the data are used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the
Government Accountability Office, the Office of Inspector General, and the Office of Management and Budget.
   Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


    Challenges for the Future

    Ensuring that adequate, timely funding is available to USDA’s program partners to support participation
    among all eligible applicants is an ongoing challenge. The Department and its partners must continue to
    work together to manage funds carefully and maintain efficient operations to serve all those in need.

    OBJECTIVE 4.2: PROMOTE HEALTHY DIET AND PHYSICAL ACTIVITY BEHAVIOR
    4.2.1Application and usage level of nutritional guidance tools.

    Overview
    Good nutrition and physical activity are important throughout the life cycle. Both, combined, are major
    forces to be used to help reduce the rates of obesity among different segments of the U.S. population,
    especially among children. Good nutrition and physical activity will help reduce the obesity epidemic and
    help prevent the chronic diseases associated with unhealthful dietary practices, such as diabetes,
    cardiovascular disease, and high blood pressure. To encourage Americans to eat well and be more
    physically active, USDA uses Federal nutrition policy and nutrition education -- both for the general
    public and those served by nutrition assistance programs. This work helps provide scientifically based
    information about healthful diets and lifestyles.

    The Department values the trust the public has in the information it provides—information that is based
    on the most recent, credible science. In addition, during the past few decades, evidence-based systematic
    reviews have replaced expert opinion as the predominant basis for health-related treatment guidelines and
    policy. In response, USDA created the Nutrition Evidence Library to specialize in conducting systematic
    reviews to inform nutrition policy and programs. For the first time, the Department and the U.S.
    Department of Health and Human Services used the Nutrition Evidence Library to update the 2010
    Dietary Guidelines for Americans.

    USDA uses the Dietary Guidelines and the MyPyramid food guidance system to advise people in the U.S.
    on how to improve their overall health through proper nutrition. MyPyramid, located at
    www.mypyramid.gov, implements the guidelines through a network of educational tools. The Department
    will continue to use the Nutrition Evidence Library to conduct systematic reviews of the science that
    represents the foundation of its policy and nutrition education tools. It also will continue encouraging
    partners and “information multipliers” – such as healthcare providers, supermarkets, and school teachers



                                                              Page 12 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




– to maximize the reach and impact of nutrition education messages, both within Federal nutrition-
assistance programs and with the general public.

Other key FY 2010 accomplishments include:

·   Continuing the collaborative effort to increase all communication of dietary and physical activity
    guidance messages. Partnering with MyPyramid, with more than 230 members, showcases the role of
    various industries and others (e.g., youth groups) as Government partners to encourage healthier
    eating and physical activity behaviors among families. The partnership is designed to empower
    nutrition gatekeepers by providing easy to apply guidance for modeling a healthy lifestyle. It also
    provides information to help them make healthy food choices for themselves and their families where
    they prepare food, work, play, and purchase food; and

·   USDA released its newest educational tool: MyFood-A-Pedia. Located at www.MyPyramid.gov, this
    mobile tool provides consumers quick access to nutrition information for more than a thousand foods.
    Consumers can check calorie amounts, the contribution of a food to the food groups, and the amount
    of extra calories from solid fats, added sugars, and alcohol in a food.


Analysis of Results
USDA continued its leadership role in promoting nutrition guidance through educational tools designed to
motivate people to live healthier. The Department distributed more than 1.6 billion pieces of nutrition
guidance materials via the Web and in print. Since the implementation of the 2005 Dietary Guidelines for
Americans, USDA distributed more than 22 billion pieces of nutrition guidance materials. The 2010
distribution level, while substantial, fell short of USDA’s goal – a change from the years immediately
following the release of the 2005 Dietary Guidelines for Americans. During that time, distribution
performance typically exceeded goals. The number of nutrition education materials distributed via the
Web and print materials is a direct measure of the degree to which people will seek information that will
help them make prudent decisions about their diet and lifestyle. Typically, a drop in the numbers of
requests is anticipated prior to the release of the next edition of the Dietary Guidelines (in this case, the
2010 Dietary Guidelines for Americans). In 2010, the tremendous public, press, and nutrition community
interest in the concluding activities of the 2010 Dietary Guidelines Advisory Committee, and the release
of its advisory report resulted in a larger drop in requests than expected with the view that new
information was looming. However, with the upcoming release of the 2010 Dietary Guidelines policy
document, the publicized future release of a revamped food pyramid icon, and the pending updated
educational materials and modernized on-line nutrition education tools in 2011, USDA expects to exceed
its target for Web-accessed and print materials in 2011.




                                                  Page 13 of 53
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                             MANAGEMENT DISCUSSION AND ANALYSIS




 Annual Performance Goals, Indicators                2006       2007         2008         2009               Fiscal Year 2010
             and Trends                                                                               Target       Actual       Result
4.2.1   Nutrition guidance, education and            1.5       2.6         3.2            3.5           3.0          1.7         Unmet
        promotion materials distributed (e-hits
        and print materials) (billions)
Rationale for Met Range: Thresholds reflect trends of MyPyramid.gov “hits” and print materials distributed (MyPyramid and the Dietary
Guidelines for Americans).
· • The precision of USDA’s tracking systems and forecasting methods allow for actual figures to meet the 2010 target in the range 2.8-
  3.2 billion.
Data Assessment of Performance Measure 4.2.1
Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with MyPyramid.gov,
survey analysis, and from inventory records of print materials.
   Completeness of Data—Data related to MyPyramid.gov are collected instantaneously, indicating the number of e-hits to the Web site
and the number of registrations to MyPyramid Tracker. However, data for October-December 2009 were not available for all parts of the
site due to system problems. Estimates based on prior year performance were used for this portion of the performance period. For print
materials, data from national headquarters represent counts of what was distributed among divisions of FNCS.
   Reliability of Data—The data are highly reliable. The number of hits is instantaneously recorded, the online survey is continual and
well-tested, and the number of distributed print materials is tracked.
   Quality of Data—The data are used to report on the success of the MyPyramid Food Guidance System. Because of the simultaneous
recording of MyPyramid.gov usage, and the thoroughness and continual nature of the customer satisfaction survey, usage and customer
satisfaction levels are a high-quality indicator of the degree to which USDA promotes, and customers respond to, interactive tools and
print materials designed to help Americans personalize their diets. With a change in the system used to record MyPyramid.gov usage, the
Department will again be able to rely on the quality of the data to report whether performance goals have been met.




    Challenges for the Future
    A major task before USDA is that of crafting actionable, understandable, science-based, and consistent
    nutrition messages and nutrition education programs in a way that promotes positive behavioral change to
    help people make better food choices. People must understand current choices of food and then an
    awareness of the relationships between choices and attitudes toward knowledge of diet/health links. The
    data that can address this information gap, however, are limited.

    The ability of existing nutrition guidance and promotional materials to achieve behavior change remains
    challenging. Limited resources are available for nutrition promotion relative to other messages, products
    and practices in the food marketplace. Physical activity and other lifestyle issues also significantly impact
    body weight and health.

    USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring its
    annual distribution of nutrition education materials. Over the longer term, the Department assesses the
    effect of these efforts with its Healthy Eating Index (HEI). HEI assesses the conformance to Federal
    dietary guidance and is based on nutrition surveillance data.




                                                             Page 14 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2010 financial
statements audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of
assets. Internal control encompasses accounting and administrative controls. Such controls include
program, operational and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4
of FMFIA, for the period ending September 30, 2010. Based on the results of this evaluation, FNS can
provide reasonable assurance that internal controls are operating effectively. For FY 2009, FNS had no
existing material weaknesses or significant deficiencies on which to report. No new material weaknesses
or significant deficiencies were identified for FY 2010.


Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30,
2010. Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for
the following sections:

        1.      Federal Financial Management System Requirements,
        2.      Applicable Federal Accounting Standards,
        3.      Standard General Ledger at the Transaction Level, and
        4.      Information Security, Policies, Procedures, and Practices

FNS has no areas of substantial non-compliance.


Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June
30, 2010, in accordance with USDA’s Implementation Guide and as required by the Office of
Management and Budget Circular A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of

                                                 Page 15 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




effectiveness of properly designed controls, summary of deficiencies and the development of corrective
action plans for control deficiencies.

Although no new material weaknesses were identified, FNS did identify one control deficiency that is part
of a Department-wide material weakness on Unliquidated Obligations. To date, the deficiency has not
been remediated. Therefore, a revised corrective action plan was submitted and approved by the
Department. Las year, seven significant deficiencies related to Agency financial management systems
were identified. All of the significant deficiencies have been remediated.

While FNS can currently provide reasonable assurance relating to internal controls, financial reporting
and financial systems for FY 2010, we have identified an area of concern that will require continued
vigilance and efforts relating to the operations of the Agency.

·   USDA Data Center Consolidation Initiative – This initiative seeks to leverage technology by
    consolidating automated systems in a single physical location with significant cost savings. The lack
    of funding has significantly hampered our ability to implement this and other Department-wide
    infrastructure initiatives.



OIG Audit Handling Process and Performance
USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and
operations. The results of this work are reports detailing, at a minimum, what was examined, findings that
should be addressed and recommendations for changes/improvements. Upon release of each final report,
FNS submits to OIG a written corrective action plan listing actions planned and dates by which these
actions will occur. Management decision is reached when OIG accepts FNS’s proposed corrective
actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up
activities to assure that planned actions for each recommendation are implemented and completed. As this
occurs, FNS notifies the Department’s Office of the Chief Financial Officer (OCFO) and requests
concurrence that all actions described in the management decision agreement have occurred. Final action
is achieved for each finding/recommendation when all actions necessary to fulfill the management
decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

    o   The amount of time needed to complete certain activities cannot be accurately estimated.
        Examples of these are:
        · Specific legislation, policy or guidance needs to be developed;
        · An investigation, negotiation, or administrative appeal action must be completed;
        · An automated system needs to be developed, implemented, or enhanced;
        · The results of additional monitoring or program review activity must be completed;
        · Disallowed costs must be collected;
        · Legal advice or opinion from the Office of General Counsel is needed; or
        · Certain external (state) or administrative actions must occur.



                                                 Page 16 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                MANAGEMENT DISCUSSION AND ANALYSIS




   o   Changes that could not be anticipated at the time management decision was reached:
       · A change must be made to the management decision agreement. For example, the agreed
          upon management decision calls on the Agency to publish a regulation, but Congress initiates
          a moratorium on regulations.
       · Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one
year past the management decision date. These interim reports show incremental progress toward
completion of planned actions, changes in planned actions, actual or revised completion dates, and
explanations for revised dates.




                                                Page 17 of 53
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                      MANAGEMENT DISCUSSION AND ANALYSIS




                Audits Without Final Action More Than One Year Past the Management Decision Date
                        Date                                     Completion Date       Reason for Lack of Final
 Audit Number                      Audit Title
                      Issued                                      for Actions (est)             Action
                                   SNAP Disqualified Recipient                       Awaiting publication of
27601-3-CH            3-22-96                                         12-31-10
                                   System                                            regulations
                                                                                     Awaiting collection of
27010-19-SF          11-18-99      Smart Start, Inc.                   8-31-11
                                                                                     disallowed costs
                                                                                     Pending collection
27010-3-KC            3-22-00      CACFP-Wildwood                     10-31-11
                                                                                     (repayment plan)
                                                                                     Agency requesting final
27010-6-KC           11-21-01      CACFP Wildwood – Phase II          12-31-09
                                                                                     action
                                                                                     Awaiting collection of
                                   Monitoring of CACFP
27601-18-CH          10-28-05                                            N/A         disallowed costs-- under
                                   Providers in Minnesota
                                                                                     court ordered restitution
                                   SSNAP California and                              Pending legal action on
27099-34-SF           8-17-07                                         12-31-10
                                   Nevada                                            complaint
                                   Disaster Supplemental
                                   Nutrition Assistance                              Awaiting publication of
27099-49-TE            9-4-07                                         11-30-11
                                   Program for Hurricanes                            regulations
                                   Katrina and Rita
                                   Compliance With Improper
27601-32-CH           9-28-04      Payments Reporting                  6-30-11       Awaiting OMB clearance
                                   Requirements
                                   Electronic Benefits transfer                      Pending billing issue and
27099-68-HY           6-20-08                                         12-31-10
                                   System State of Colorado                          administrative action
                                   Food Stamp Employment                             Awaiting publication if
27601-16-AT           3-31-08                                          8-31-12
                                   and Training Program                              regulations



In FY 2010, audit numbers 27010-6-KC, CACFP Wildwood – Phase II; 27601-35-CH, CACFP Supper Meals
Served in Schools; 27099-63-AT, SFSP Operated by the State of Georgia; and 27501-2-HY, Application Control
Review of FNS’s Store Tracking and Redemption System II were closed. The Inspector General Act Amendments
of 1988 requires the accompanying data for an annual report on the status of audits.




                                                      Page 18 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                   MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and
activities, 2) identify those that may be susceptible to significant improper payments, 3) estimate the
annual amount of improper payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that
exceeds both 2.5% of program payments and $10,000,000. For programs/payments that fit this
description, agencies must:

    ·   Measure and reduce the improper payments,
    ·   Identify the causes and take action to correct them,
    ·   Implement necessary infrastructure to support activities,
    ·   Develop proposals to obtain necessary infrastructure, and
    ·   Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA)
funding, which support FNS’s Federal administrative operations. Assessments were conducted in
conjunction with USDA-coordinated procedures. FNS, with OMB concurrence, has designated five
programs as susceptible to significant improper payments: the Supplemental Nutrition Assistance
Program (SNAP), the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
the Child and Adult Care Food Program (CACFP), the National School Lunch Program (NSLP) and the
School Breakfast Program (SBP). Improper payment measurement activities for each are described
briefly below.

    ·   The Supplemental Nutrition Assistance Program (SNAP – formerly known as the Food Stamp
        Program), sampling and erroneous payment measurement processes, the accepted hallmark of the
        IPIA environment, has been a legislative mandate for more than 30 years. This process compares
        the certification criteria upon which a household’s benefit issuance is determined with the
        household’s circumstances at the time of issuance. All case results are accumulated by state. The
        state results are validated and the validated results are combined into a national cumulative
        (overpayments plus underpayments) error rate. No other payment lifecycle steps are included.
        Improper payment measurement activities predate the passage of the IPIA. SNAP processes
        were compliant with the intent of the law when it was passed. State agencies are required to
        establish and collect SNAP claims in accordance with the requirements found in the Program
        regulations. Debts that become delinquent are subsequently submitted by the State agencies for
        collection through the Treasury Offset Program. In past years, FNS has used target measures to
        gauge the success of recipient claims activity. Claims collection by States is ongoing, however,
        success in this area can be challenging, since collections are to a large extent tied to the ability of
        each individual State to pursue and collect erroneous payments. To complicate matters, State
        error rates fluctuate over time with changes in the economy and in the numbers of the recipient
        population

    ·   In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
        work is underway to report improper payment error rates on two segments of the program:
        certification error and vendor error.


                                                  Page 19 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




            o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under
                payment rates for FY 2005 were developed through a nationally representative study of a
                probability sample of WIC vendors. Data from this study is then in conjunction with
                information on vendor investigations by State WIC Agencies to prepare a statistically
                estimated improper payment amount for each subsequent year. Until the next study is
                completed, the 2005 rates will be aged using data generated by State undercover
                investigators who attempt to make WIC purchases using valid WIC food instruments.
                The charges submitted by each sampled vendor are compared to the undercover purchase
                activity to estimate overcharging, and other sanctionable violations. Case results are
                accumulated by State and used to age the estimates.

            o   Certification rate: WIC households are interviewed and compared to the certification
                criteria upon which a household’s benefit issuance was determined with the household’s
                circumstances at the time of issuance. However, delays in the study will result in data
                collection being delayed until FY 2009. A preliminary estimate of erroneous payments
                associated with certification actions will be available in 2011.

Current statutory authority allows USDA to recover improper payments from state agencies when
identified through reviews, audits or other operational oversight activities. This authority does not
support collection of improper payments identified on the basis of a statistical sample or estimation
procedure, as is used to develop the national estimates of improper payments reported here.

    ·   The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care
        Centers, Adult Day Care facilities and Family Day Care Homes (FDCHs). Overall program
        funding is provided to state agencies which provide funds to sponsoring organizations to pay for
        claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as
        small as a household. Each part of CACFP has its own reimbursement structure.

        Payments and claim information are transferred among FNS, State agencies, program sponsors
        and program sites; each such transaction represents a risk for improper payment. Because
        requirements vary significantly for each different type of program sponsor and site, a
        comprehensive assessment of improper payments is extremely complex.

        The original plan was to develop a program-wide study which would examine reimbursements
        for meals served and develop program error measurements that complied with the requirements
        of the IPIA. Because of the complexities of the program, FNS estimated that it would cost $20
        million to measure improper payments at the precision required by IPIA. This amount has not
        been appropriated.

        FNS has identified the FDCH component of this program as potentially high risk, and measures
        error in this part of the program in lieu of the unfunded comprehensive measure. FDCHs
        participate in CACFP through public or private nonprofit sponsoring organizations. FDCH
        improper payments are most likely caused by sponsor error in determining a participating home’s
        reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are
        eligible for reimbursement (claiming error).




                                                  Page 20 of 53
                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                        MANAGEMENT DISCUSSION AND ANALYSIS




Two activities are underway which provide information on improper payments in the
FDCH component of CACFP. A third activity is being pilot tested.

   o   CCAP – In the spring of 2004, FNS began the Child Care Assessment Project (CCAP).
       This project was designed to measure the effectiveness of efforts to improve the integrity
       of CACFP family day care homes and provide information from a broadly representative
       national sample of sponsors and providers. Data were collected by the Food and
       Nutrition Service (FNS), in cooperation with State agencies and sponsors administering
       the Child and Adult Care Food Program, during the period 2004-2007. The CCAP
       process was designed to measure whether the two interim management improvement
       rules issued by FNS in 2002 and 2004 had been properly implemented, and whether the
       rules had effectively addressed the serious program management and integrity problems
       that had been uncovered in the 1990s. In the three and one-half years during which
       assessments were conducted, FNS gathered the program records of 58 family day care
       home (FDCH) sponsors and over 3,000 of their providers. A final report was issued in
       July 2009. Overall, the findings indicated that the serious problems which had prompted
       the previous legislative and regulatory action were not common in 2004-2007. However,
       some concerns were identified, including the accuracy of recordkeeping by family day
       care home providers and the use of the serious deficiency process by program sponsors.
       FNS is currently developing an action plan to address those CCAP findings which
       suggest a need for additional measures to improve Program administration in the FDCH
       component of CACFP at the local, State, and Federal levels. This action plan will take
       into account the very real challenges of providing Federally-supported nutrition
       assistance in approximately 140,000 private residences across the country. Therefore,
       any changes to Program procedures and requirements recommended in the action plan
       will consider this unique aspect of administering the CACFP

   o   Sponsor error – FNS has developed an annual sponsor tiering error measure and tested
       it. CACFP sponsors are responsible for determining whether family day care homes
       receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). In FY 2005,
       the first annual data collection began to determine a nationally representative sponsor
       tiering determination error rate. Results for FY2005, FY2006 and FY2007 have been
       reported. FY 2008 estimates were available in August 2010.

   o   Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of
       estimating the risk of claiming errors. FNS proposed to select a random sample of
       sponsoring organizations and, from each, use a random selection of the sponsor’s
       monitoring visits of FDCHs. FNS would compare the number of meals claimed with the
       number of children observed at the time of the visit. If feasible to conduct, it was
       assumed that this comparison would provide an estimate of the risk of overpayment.

       FNS staff collected data in 11 family day sponsors around the country, gathering a
       random sample of 268 FDCH sponsor monitoring visit records. For each, FNS gathered
       the FDCH’s meal claim data for the month of the monitoring visit and the month before.
       Results were analyzed and released in a report in May 2009; FNS found that the tested
       method does not provide a reliable estimate of family day care meal claiming error.

       FNS developed and pilot tested additional alternatives to determine the feasibility of
       estimating the risk of claiming error by methods such as direct observation of FDCHs or

                                        Page 21 of 53
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                              MANAGEMENT DISCUSSION AND ANALYSIS




            by contacting parents to determine if children were really present at a FDCH when
            claimed. This test found that parent recall surveys are worthy of further evaluation as the
            method most likely to yield reliable information on improper payments related to meal
            claiming errors. A report on the feasibility study was released in September 2009.

    Improper payments identified through the course of a review, audit, or through other operational
    oversight activities can be recovered either through direct billing or through an offset of future
    program payments earned. Current statutes only provide authority to recover improper payments
    identified through reviews, audits or other operational oversight activity. Program regulations
    allow States to waive claims against a single institution for improper payments of up to $600 in a
    single fiscal year. CACFP does not have authority to pursue collection of improper payments
    identified on the basis of a statistical sample or estimation procedure.

·   The National School Lunch Program and School Breakfast Program do not have a sampling
    and erroneous payment measurement process comparable to SNAP. Instead, FNS relies on
    nationally representative studies to produce estimates of erroneous payments. The most recent
    study was reported in 2007. Contingent upon available funding, FNS will produce an erroneous
    payment measurement by updating this study every five years. Also, as part of this same project,
    FNS developed a methodology that uses data available from other sources to estimate erroneous
    payments due to certification error on an annual basis. Current statutory authority allows USDA
    to recover improper payments from state agencies when identified through review, audits or other
    operational oversight activities. Current statutory authority does not support collection of
    improper payments identified on the basis of a statistical sample or estimation procedure, as is
    used to develop the national estimates of improper payments reported here.

    Nationally-Representative Study: The sampling plan for the large national study of erroneous
    payments in NSLP and SBP called for the selection of a national probability sample of School
    Food Authorities (SFAs), schools, certified students and households that applied and were denied
    NSLP and SBP benefits in school year 2005-06. A stratified random sample of 78 unique public
    SFAs was selected in the first stage of sampling. Stratification variables included geographic
    region, prevalence of schools with SBP and those using Provision 2/3, and a poverty indicator.
    For SFAs that do not have Provision 2/3 schools, three schools, on average, were selected for
    inclusion in the studying the second stage of sampling. Schools were stratified into two groups:
    (1) elementary schools and (2) middle and high-schools. The school sample included both public
    and private schools. A total of 264 schools participated in the study (216 non-Provision 2/3
    schools, 24 Provision 2/3 schools in their base year, and 24 Provision 2/3 schools not in their base
    year). For the third stage of sampling, samples of households were selected in 240 of these
    schools to yield completed interviews for about 3,000 students certified for free and reduced-price
    meals and about 400 denied applicant households. The sample of approved and denied applicant
    households was augmented by sampling of applications from Provision 2/3 schools in which
    household surveys were not conducted. Application reviews of about 6,800 students approved
    for free and reduced-price meals and over 1,000 denied applicants were conducted to estimate the
    case error rate due to administrative error. All schools selected for application reviews would
    also include data collection for counting and claiming errors. Field staff observed approximately
    100 lunch transactions at each of 245 schools participating in the NSLP and 50 breakfast
    transactions at each of 218 schools participating in the SBP on randomly selected school days.
    Cashier error was estimated using information from these meal transactions. Data on school-
    recorded daily meal totals across all points of sale, aggregated meal counts reported to the district,


                                              Page 22 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




        and total meals submitted to the State Agency for reimbursement were examined to determine
        claiming errors.

        Interim Estimation: To update the erroneous payment rate estimates in NSLP without having to
        conduct another full round of primary data collection, a series of econometric models were
        developed that captured the relationship between characteristics of the districts that participated in
        the APEC study and their estimated rates of certification error. Estimated coefficients from these
        models were used in conjunction with updated values of district characteristics obtained from the
        School Food Authorities Verification Summary Reports (Form FNS-742) to predict certification
        error. Certification error rates were then translated into amounts and rates of erroneous payments
        in each district. Aggregating the district level estimates produced a national measure of predicted
        erroneous payments.


Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the
USDA Performance and Accountability Report.

The tables below summarize the results of measurement activities for FNS programs identified as subject
to a significant risk of improper payments. The first table shows improper payment rates for the last two
years and the second table reflects future reduction targets. All results reported each year represent
measures of outlays and program activity for the previous year.




                                                  Page 23 of 53
                                       FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                           MANAGEMENT DISCUSSION AND ANALYSIS




            Preliminary Data as of 7/31/10 – FNS Measures for IPIA Reporting
                      2008 Performance and Accountability Report
                                 Improper Payment Sampling Results ($ in millions)
                                                            Results                        Results
                         Program                      Reported in FY 2009            Reported in FY 2010
                                                   Outlays    IP%         IP$      Outlays   IP%       IP$
  Supplemental Nutrition Assistance Program, FNS                34,611          5.01%       1,733        50,360      4.36%      2,195
  National School Lunch Program, FNS                             9,436         16.44%       1,551         8,925     16.28%      1,453
  School Breakfast Program, FNS                                  2,273         24.62%         560         2,534     24.87%        630
  Women, Infants and Children, FNS
    Total Program                                                4,483           N/A          N/A         6480        N/A        N/A
    Certificación Error Component                                4,483           N/A          N/A         6480        N/A        N/A
    Vendor Error Component                                       4,483         1.27%           57         6480      1.17%         76
  Child and Adult Care Food Program, FNS
    Total Program                                                2,214           N/A         N/A          2,461       N/A        N/A
    FDC Homes – Tiering Decisions                                  713         2.07%         14.7           911      .99%          9
    FDC Homes – Meal Claims                                        713           N/A         N/A            911       N/A        N/A




                  Detailed Breakout of Improper Payment Rates reported in FY 2010 ($ in millions)
                                              Total                      Over-          Under-
                                                          IP%                                                                 Other
                                            Payments                  payments         payments
 Supplemental Nutrition Assistance Program,
 FNS                                                50,360          4.36%                 4.36%             .82%               N/A
 National School Lunch Program, FNS                 8,925           16.28%                7.09%             2.31%              N/A
 School Breakfast Program, FNS                          2,534         24.87%              7.02%             2.06%              N/A
 Women, Infants and Children, FNS
   Vendor Error Component                             6480          1.17%                 0.86%             0.31%              N/A
 Child and Adult Care Food Program, FNS
   FDC Homes – Tiering                                 911           .99%                 .99%              0.00%              N/A




                                 Improper Payment Reduction Outlook ($ in millions)
                              FY 2010 Reporting           FY 2011 Reporting                                FY 2012 Reporting
      Program
                           Outlays    IP%       IP$  Outlays      IP%         IP$                       Outlays    IP%       IP$
Supplemental Nutrition
Assistance Program,
FNS                           50,360      4.36%      2,195         72,577         5.0%            N/A      76,030     5.0%
National School Lunch
Program, FNS                   8,925      16.28%     1,453          2,823        24.06%                    10,456    15.37%
School Breakfast               2,534      24.87%      630
Program, FNS                                                        2,823        23.03%           650       2,959    23.27%
Women, Infants and
Children, FNS                  6480       1.17%         76          7,704         .97%            575       7,467     0.77%              57
Child and Adult Care
Food Program, FNS               911       .99%         .99               896      .92%           18.2         908     .87%           8




                                                          Page 24 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the Food and Nutrition Services (FNS), an agency of the United States Department of
Agriculture, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from the books and records of FNS in accordance with GAAP for Federal entities and the formats
prescribed by OMB, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government,
a Sovereign entity.


SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND
ANALYSIS
FNS’ FY 2010 financial statements reflect the nutrition assistance programs’ responsiveness to the
Nations’ economic performance. By design, the level of activity within the nutrition assistance programs
varies with the level of need experience by the populations we serve. A key determinant of this level of
need is the condition of the economy. In FY 2009 the economy performed weaker than was anticipated by
the President’s FY 2009 budget request. As a result, program participation and costs, as reflected in the
financial statements are, on average, higher than was anticipated.

In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, in
FY 2008 FNS clarified its reporting of the Grant Award (GAD) Accrual. FNS performed an analysis of
the GAD Accrual and determined that the GAD Accrual consisted of Entitlement Benefits and Non
Entitlement Benefits. For the FY 2010 Financial Statements FNS will report Entitlement Benefits as
“Benefits Due and Payable” and report Non Entitlement Benefits as “Other Liabilities” on the Balance
Sheet and related footnotes. The classifications of these accruals have no impact on the amounts reported
for Total Liabilities.

Balance Sheet
                                         2010                             2009
                               Dollars (mil)      Percent        Dollars(mil)  Percent
Fund Balance With Treasury            20,851       96.31%             20,820   96.44%
Accounts Receivable                      310        1.43%                324    1.50%
General PP& E                                2      0.01%                   4   0.02%
Other                                    486        2.25%                441    2.04%
   Total Assets                       21,649      100.00%             21,589 100.00%
Accounts Payable                            2       0.01%                 4     0.02%
Employee Benefits                           6       0.03%                 6     0.03%
Benefits Due and Payable                3,356      15.50%             3,120    14.45%
Other Liabilities                       1,625       7.51%             1,166     5.40%
  Total Liabilities                     4,989      23.05%             4,296    19.90%


                                                 Page 25 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




Unexpended Appropriations               16,393      75.72%             17,008       78.78%
Cumulative Results of
Operations                                 267       1.23%                285        1.32%
  Total Net Position                    16,660      76.95%             17,293       80.10%
Total Liabilities & Net
Position                                21,649        100%             21,589        100%




The Balance Sheet composition (comparative composition of account balances to the totals) remained
substantially the same in FY 2010 as the prior year. The vast majority of FNS assets are held in Fund
Balance with Treasury (FBWT) - approximately 96% in FY 2010 and FY 2009. This cash-like account
largely represents the aggregate amount of funds in the FNS accounts with the U.S. Treasury from which
the agency is authorized to make expenditures and pay liabilities. As financial statement Note 3 presents,
a substantial portion of the fund balance is unavailable as they are associated with either expired years or
are contingency funds which were not made available.

“Other assets” remained at levels consistent with the prior year. Accounts receivable levels also remained
consistent with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts
that are currently payable to grantees on Entitlement Benefits Programs. The FY 2010 and FY 2009 Net
Position of the agency is concentrated in Unexpended Appropriations.

Statement of Net Cost
                                      2010                                   2009
                            Dollars(mil)       Percent            Dollars(mil)        Percent
Gross Cost                         95,590      100.05%                    79,430       100.05%
Less: Earned Revenue                 (51)        -0.05%                      (42)        -0.05%
Net Cost of Operations             95,539      100.00%                    79,388       100.00%



The FNS mission addresses USDA Strategic Goal 4 “To Improve the Nation’s Nutrition and Health”. All
program costs are reported under that strategic goal. Gross Costs increased from $79,430 million in FY
2009 to $95,590 million in FY 2010, reflecting the overall increase in programs participation levels. .

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less
than one percent), in both fiscal years. Earned revenue largely represents funds from the State Option
Supplemental Nutrition Assistance Program authorized under P.L. 105-18. States participating in this
program (California, Wisconsin, and Nebraska) reimburse FNS for benefits paid to legal immigrants who
do not qualify for the Federal Supplemental Nutrition Assistance Program to whom the States have
“opted” to provide benefits. Additional earned revenue is received from other Federal agencies for
reimbursement of expenses related to information technology services and facility-related services
including WBSCM, Commodity Improvement Initiative and Whole Grain Study.

The Net Cost of Operations increased from $79,388 million in FY 2009 to $95,539 million in FY 2010.

                                                  Page 26 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Changes in Net Position

                                          2010                        2009
                                 Dollars(mil)  Percent       Dollars(mil)  Percent
Cumulative Results of
Operations
Beginning Balance                         285                         223
Appropriations Used                    87,434     91.53%           71,833      90.41%
Transfers In (Out) without
Reimbursements                          7,036      7.37%             6,588      8.29%
Other Budgetary Financing
Sources                                     0      0.00%                0      0.00%
Imputed Financing                       1,050      1.00%            1,029      1.30%
  Total Financing Sources              95,520    100.00%           79,450    100.00%
Less: Net Cost of Operations           95,539                      79,388
Ending Balance                            267                         285
Net Change
                                         (18)                           62
Unexpended Appropriations
Beginning Balance                      17,008                       15,311
Appropriations Received                87,132                       75,649
Adjustments                             (313)                       (2119)
Appropriations Used                  (87,434)                     (71,833)
Total: Financing Sources                (615)                        1,697
Ending Balance                         16,393                       17,008

Total Net Position                     16,660                      17,293



The Statement of Changes in Net Position explains the changes in the two components of Net Position of
the Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended
Appropriations.

The FY 2010 appropriations used was $87,434 million, increased $15,601 million from FY 2009, based
on actual participation levels and food costs.

Cumulative Results of Operations decreased $18 million, from $285 million in FY 2009 to $267 million
in FY 2010, as the net cost of operations is greater than the total financing sources. The proportional
distribution of financing sources among appropriations, transfers, and imputed financing remained
relatively unchanged from FY 2009 to FY 2010. Transfers are largely made up a single large transfer
made in the annual appropriations act from funds available to the Secretary under Section 32 of the Act of
1935 for support of Child Nutrition programs. Additionally, FNS received transfers from the Commodity
Credit Corporation for the Senior Farmers Market Program. Transfers represented approximately eight
percent and ten percent of total financing sources in FY 2010 and FY 2009 respectively.



                                                  Page 27 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 MANAGEMENT DISCUSSION AND ANALYSIS




Unexpended Appropriations decreased from $17,008 million in FY 2009 to $16,393 million in FY 2010
as more carryover appropriation balances were expended in the current year. Adjustments decreased
from $2,119 million in FY 2009 to $313 million in FY 2010 are due to cancellations of expired accounts.

Statement of Budgetary Resources

                                         2010                        2009
                                Dollars(mil)  Percent       Dollars(mil)  Percent
Budgetary Resources
Beginning Unobligated
Balance                              15,473      14.01%           14,258     15.01%
Recoveries                              990       0.90%              507      0.53%
Appropriations                       87,130      78.89%           75,647     79.66%
Collections                             129       0.11%               85      0.09%
Change in unfilled customer
orders                                    0       0.00%                0      0.00%
Transfers                              7038       6.37%            6,590      6.94%
Less: Permanently Not
Available                              -313       -.28%           -2,119     -2.23%
Total Budgetary Resources           110,447     100.00%           94,968    100.00%

Status of Budgetary
Resources
Direct Obligations                   95,816      86.75%           79,453     83.66%
Reimbursable Obligations                 51       0.05%               42      0.04%
Apportioned- Unobligated              3,775       3.42%            1,520      1.60%
Unobligated- Not Available           10,805       9.78%           13,953     14.69%
Total: Status of Budgetary
Resources                           110,447     100.00%           94,968    100.00%

Net Outlays                          93,822      84.95%           77,844     81.97%




The Statement of Budgetary Resources displays the source of all budgetary resources for the fiscal year as
well as the status of those resources as of the end of the fiscal year.

Appropriations were increased from $75,647 millions in FY 2009 to $87,130 millions in FY 2010. Total
budgetary resources were higher than prior year due to increase in Appropriations for the year. FNS had
$110,447million in total budgetary resources during FY 2010, largely from appropriations received, but
also from recoveries and available unobligated balances from prior periods. In addition FNS has included
in the FY 2010 financial statements the ARRA supplemental appropriations used to stimulate the U.S.
economy. The ARRA appropriations for FY 2010 totaled $10.7 billion

Permanently Not Available decreased from $2,119 million in FY 2009 to $313 million in FY 2010 is due
to cancellations of expired accounts.



                                                 Page 28 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                MANAGEMENT DISCUSSION AND ANALYSIS




At fiscal yearend 2010, most ($95,816) million or 86%) of those resources were obligated, though $3,775
million or 3% remained unobligated and available, and another $10,805 million (9%) was unobligated
and not available (including apportioned unavailable Contingency Reserve funds for WIC and SNAP). In
FY 2010, Net Outlays represented 82% of Total Budgetary Resources, compared to 80% in FY 2009.




                                                Page 29 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                           FINANCIAL STATEMENTS



                                         Food and Nutrition Service

                                CONSOLIDATED BALANCE SHEET
                            As of September 30, 2010 (CY) and 2009 (PY)
                                        (Dollars in Millions)

                                                    FY 2010                           FY 2009
                                                     (CY)                              (PY)
Assets (Note 2):
    Intragovernmental:
              Fund Balance with
              Treasury                      $    20,851                       $    20,820
              Other (Note 6)                       486                                441
    Total Intragovernmental                      21,337                            21,261
    Accounts Receivable, net (Note 4)              310                                324
    General Plant, Property, and
    Equipment, net (Note 5)                          2                                 4
    Other (Note 6)                                   -                                 -
Total Assets                                $    21,649                       $    21,589

Liabilities (Note 7):
    Intragovernmental:
              Accounts Payable              $         -                       $        2
              Other (Note 8)                         36                               32
    Total Intragovernmental                          36                               34

    Accounts Payable                                  2                                2
    Federal Employee and Veterans
    Benefits                                          6                                6
    Benefits Due and Payable                      3,356                             3,120
    Other (Note 8)                                1,589                             1,134
Total Liabilities                                 4,989                             4,296

Net Position:
    Unexpended Appropriations -
    Other Funds                                  16,393                            17,008
    Cumulative Results of Operations -
    Other Funds                                    267                               285
Total Net Position                          $    16,660                       $    17,293
Total Liabilities and Net Position          $    21,649                       $    21,589

                   The accompanying notes are an integral part of these statements.

Note: CY denotes Current Year; PY
denotes Prior Year.




                                                Page 30 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                          FINANCIAL STATEMENTS




                                      Food and Nutrition Service
                           CONSOLIDATED STATEMENTS OF NET COST
                     For the Years Ended September 30, 2010 (CY) and 2009 (PY)
                                         (Dollars in Millions)


                                                             FY 2010                      FY 2009
                                                              (CY)                         (PY)
Program Costs:
   Strategic Goal:
       Improve the Nation's Nutrition
       and Health:
                   Gross Costs
                   (Note 10)                  $    95,590                           $ 79,430
                   Less: Earned
                   Revenue                              51                               42
                   Net Program
                   Costs                           95,539                            79,388

Net Cost of Operations                        $    95,539                           $ 79,388



                   The accompanying notes are an integral part of these statements.




                                                  Page 31 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                           FINANCIAL STATEMENTS




                                  Food and Nutrition Service
                 CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                         As of September 30, 2010 (CY) and 2009 (PY)
                                     (Dollars in Millions)

                                                      FY 2010                        FY 2009
                                                       (CY)                               (PY)
Cumulative Results of Operations:
Beginning Balance                           $         285                       $        223
Beginning Balance, as adjusted                        285                                223

Budgetary Financing Sources:
  Appropriations Used                              87,434                             71,833
  Transfers in/out without
  reimbursement                                     7,036                              6,588
  Other                                                 -                                  -

Other Financing Sources (Non-
Exchange):
  Imputed Financing                                 1,050                              1,029

Total Financing Sources                            95,520                             79,450
Less: Net Cost of Operations                       95,539                             79,388
Net Change                                            (19)                               62

Cumulative Results of Operations                      267                               285

Unexpended Appropriations:
Beginning Balance                                  17,008                             15,311
Beginning Balance, as adjusted:                    17,008                             15,311

Budgetary Financing Sources:
  Appropriations Received                          87,130                             75,647
  Appropriations Transferred in/out                    2                                  2
  Other Adjustments                                  (313)                            (2,119)
  Appropriations Used                             (87,434)                           (71,833)
  Total Budgetary Financing Sources                  (615)                             1,697
Total Unexpended Appropriations                    16,393                             17,008

Net Position                                $       16,660                      $     17,293



                   The accompanying notes are an integral part of these statements.




                                                  Page 32 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                          FINANCIAL STATEMENTS



                                      Food and Nutrition Service
                   CONSOLIDATED STATEMENTS OF BUDGETARY RESOURCES
                     For the years ended September 30, 2010 (CY) and 2009 (PY)

                                            (Dollars in Millions)
                                                              FY 2010               FY 2009
                                                               (CY)                   (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                 $ 15,473           $ 14,258
Recoveries of prior year unpaid obligations                          990                507
Budget authority
  Appropriation                                                      87,130           75,647
  Spending authority from offsetting collections
       Earned
           Collected                                                   129               85
       Change in unfilled customer orders
           Advance received                                            (0)                 -
           Without advance from Federal sources                        (0)                 -
  Subtotal                                                         87,259             75,732
Non-expenditure transfers, net, anticipated and actual              7,038              6,590
Permanently not available                                           (313)             (2,119)
Total Budgetary Resources                                        $110,447           $ 94,968

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                         $ 95,816           $ 79,453
  Reimbursable                                                        51                 42
  Subtotal                                                         95,867             79,495
Unobligated balance:
  Apportioned                                                       3,775             1,520
  Subtotal                                                          3,775             1,520
Unobligated balance not available                                  10,805             13,953
Total status of budgetary resources                              $110,447           $ 94,968



Change in Obligated Balances:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                 $     5,347        $ 4,288
  Total unpaid obligated balance, net                                  5,347          4,288
Obligations incurred net (+/-)                                        95,866          79,495
Gross outlays                                                        (93,951)        (77,929)
Recoveries of prior year unpaid obligations, actual                    (990)           (507)
Change in uncollected customer payments from
Federal sources (+/-)                                                    (0)              -
Obligated balance, net, end of period
  Unpaid obligations                                                  6,272           5,347
  Uncollected customer payments from Federal
  sources                                                                 -               -
  Total unpaid obligated balance, net, end of period                  6,272           5,347

                                                 Page 33 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                           FINANCIAL STATEMENTS




Net Outlays:
  Gross outlays                                                     93,951             77,929
  Offsetting Collections                                             (129)                (85)
  Distributed offsetting receipts                                        -                  -
  Net Outlays                                                     $ 93,822           $ 77,844



                    The accompanying notes are an integral part of these statements.




                                                  Page 34 of 53
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)


                                  FOOD and NUTRITION SERVICE

 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service
   (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular
   A-136 dated September 29, 2010. They have been prepared from the books and records of FNS
   in accordance with the Generally Accepted Accounting Principles (GAAP) as applied to the
   Federal Government. GAAP for Federal financial reporting entities recognizes the Federal
   Accounting Standards Advisory Board (FASAB) as the standard setting body.

   In accordance with the Office of Management and Budget and the Budget Execution of the
   American Recovery and Reinvestment Act (ARRA) of 2009 Appropriations, FNS has included
   in the FY 2010 financial statements the supplemental appropriations used to stimulate the U.S.
   economy. The ARRA appropriations for FY 2010 totaled $10.7 billion.


B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction
   of the Under Secretary for Food and Nutrition Consumer Service of the United States
   Department of Agriculture. FNS is headed by an administrator with overall policy formulated in
   the FNS headquarters in Alexandria, Virginia, and implemented through seven regional offices
   and 65 field offices, four Supplemental Nutrition Assistance Program (SNAP) compliance
   offices, one computer support center in Minneapolis, Minnesota. State departments of education
   have responsibility for food programs serving children in schools, child care centers, and
   summer recreation centers. State departments of health, welfare, and agriculture usually have
   responsibility for programs providing SNAP benefits or supplemental foods. For the FY 2010
   financial statement presentation, data classified as “Other” is primarily comprised of Nutrition
   Program Administration (NPA) appropriations. A detailed description of the FNS programs is
   contained in the Management Discussion & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNS is responsible and were prepared in accordance
   with the GAAP hierarchy of accounting principles for the Federal Government.


D. Accounts Receivable

 The $310 million recognized as non-federal accounts receivable includes debts owed FNS by
 individuals, businesses, States and local governments. The largest single component of this item


                                                    Page 35 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

consists of SNAP recipient claims. States establish claims against households to recover over
issued food stamp benefits. States are responsible for pursuing collection of such claims.
Collections, less an authorized State retention amount, are remitted to FNS. The portion of total
net realizable receivables consisting of SNAP recipient claims is the expected amount of such
remittance from States. The data generated by the State systems of gross account receivables has
been determined to be unreliable. Accordingly, FNS does not know what the State gross account
receivable is. FNS have an alternative method for acquiring reliable State receivable information.

FNS estimates net realizable SNAP accounts receivable through a regression-based statistical model.
This model estimates future collections by the States, which the States will remit to the Federal
Government as of the end of the accounting period based on the actual SNAP issuance and net claims
collections for prior years. The forecasting model draws its predictive power from the strong historical
relationship between the level of SNAP benefit issuance and the level of recipient claims collections by
States. Applying the model to actual data covering the periods FY 1984 through FY 2010, the model
explains 96 percent of the variation in claims collections. Historically, collections projected by the model
have proved to be accurate within approximately 4 percent of actual net collections. Because the
expected cash flow from collections of such claims beyond one year is not expected to be material, FNS
does not estimate collections after the initial year or discount the estimate produced by the statistical
model to its present value.

The SNAP has a system for monitoring and controlling program issuance called the Quality
Control (QC) system. It is an ongoing, comprehensive monitoring system required by the SNAP
Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
and “negative case actions” (terminations and denials of benefits), is chosen each month. State
officials review the sampled case records to measure and verify the accuracy of eligibility and
benefits determinations, made by State eligibility workers, against Program standards for the
month under review. QC errors detected through the review process include both under issuance
and over issuance to eligible households and issuance to households that are not eligible for
benefits.

Because reliable data is not available addressing gross FNS accounts receivable, the SNAP QC
estimate of SNAP benefits over issued nationwide provide the best statistically valid estimate of
invalid program payments. Fiscal Year 2009 QC error rates were announced in June 2010. Using
this methodology, FNS estimates the value of benefit over issuance in Fiscal Year 2009 (the most
recent year for which data are available) at $1.780 billion. Statement of Federal Financial
Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts receivable.
The QC error rate over issuance estimate is considered the best estimate available. However,
since this is an estimate of all SNAP overpayments, the actual State gross account receivable
amount would be lower but the variance cannot be quantified. The amount of over issued benefits
is included in the total program cost of the SNAP as reflected in the Statement of Net Cost.


FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
end of the fiscal year; therefore, current information is not available for the FY 2010 financial statements.
For FY 2009, four States were assessed amounts for having excessive error rates for two consecutive
years. The aggregate total of the liability was $6 million. The four States signed payment agreements in
lieu of immediately repaying in cash. The agreements called for each State to invest 50 percent of its
liability in program improvement activities. The remaining 50 percent of the liability was placed at risk
pending future improved performance.


                                                  Page 36 of 53
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)



          The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year              Rate Amount                    Total $ (Billions)
            2009                     3.53 %                         $ 1.780
            2008                     4.01 %                         $ 1.387
            2007                     4.58 %                         $ 1.392


E. Grants and Program Benefits

FNS records grant obligations based on the grant awards and SNAP benefits based on the issuance of
benefits to AMA. Funds for FNS grant programs and SNAP electronic benefits transfer (EBT) benefits are
provided to States through a Letter of Credit process. This process allows the grantees or the EBT
processor to draw on established credit balances, as needed, to pay expenses associated with their grants or
SNAP EBT transactions at retailers. This allows the U. S. Treasury to hold funds until the actually grantees
need the funds to pay program expenses or until the SNAP EBT benefits are actually used. Expenses are
recognized and obligations liquidated as grantees or EBT processors drawdown on the Letter of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
 balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
 that current or prior year appropriations are not available to fund annual leave earned but not
 taken, funding will be obtained from current or future financing sources. Sick leave and other
 types of non-vested leave are expensed as taken.



G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
 Employees Retirement System (FERS). FNS makes matching contributions to the CSRS total
 plan equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7 percent of
 pay. For most employees hired since December 31, 1983, FNS also contributes the employer's
 matching share for Social Security. FERS went into effect pursuant to Public Law 99-335 on
 January 1, 1987. Most employees hired after December 31, 1983, are automatically covered by
 FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which
 FNS automatically contributes 1 percent of pay and matches any employee contribution up to an
 additional 4 percent of pay. FNS makes these and other contributions to employee retirement
 plans as shown in the following table:




                                                   Page 37 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
 CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
 employees. Reporting such amounts is the responsibility of the Office of Personnel Management's
 Federal Retirement System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
 Government, requires Federal entities to recognize an expense for pensions and other retirement benefits
 at the time the employee’s services are rendered. The purpose of recognizing this expense is to record and
 report the full cost of each entity’s operation. Corresponding revenue, Imputed Financing Sources, is
 recognized to the extent pension and other retirement benefit expenses exceed the amount paid to the
 Office of Personnel Management (OPM).

H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and
 multi-year appropriations. FNS recognizes appropriations as used at the time that program or
 administrative expenses are delivered and recognized. FNS recognizes appropriations expended
 for capitalized property or equipment as expenses when the assets are consumed in operations.
 Appropriations used are the amount of appropriations expended during the current period to fund
 FNS’ nutrition programs. This includes the NPA appropriation, which provides funds for salaries
 and administrative expenses.

 At the time grant awards are made, FNS records obligations for the full amount of expected
 expenses as unexpended obligations-unpaid (undelivered orders). Reductions in unexpended
 obligations occur as expenses are incurred by grantees. At year-end, grant obligations are accrued
 and reflected on the financial statements as accounts payable. At grant closeout, the unused
 portions of grant awards are deobligated; increasing the unobligated balances and is shown on the
 balance sheet as part of unexpended appropriations. Unobligated balances available for future
 periods are also shown as unexpended appropriations.

I. Fund Balance with Treasury Accounts

   The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
   Balance with Treasury is primarily appropriated funds.

J. Direct versus Reimbursable Obligations Incurred

                                                  Page 38 of 53
                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)



As of FY 2010, FNS’ direct and reimbursable obligations incurred are represented as amounts
apportioned under category A and B. The amounts apportioned by Fiscal Quarter consist of FNS’
category A obligations and the amounts apportioned for Special Activities consist of category B
obligations as reported on the agency’s year-end SF133s, Report on Budget Execution and Budgetary
Resources, and lines 8a and 8b of the Statement of Budgetary Resources.

Note 2. Non-Entity Assets




FNS’ Non-Entity Assets related to Accounts Receivable consists of FNS’ Miscellaneous Receipts,
Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.




                                               Page 39 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)




Note 3. Fund Balance with Treasury




Note 4. Accounts Receivable, Net



                                         Allowance for
                  Gross Accounts         Uncollectible           Accounts
     FY 2010      Receivable             Accounts                Receivable, Net
Intragovernmental $              -       $             -         $               -
With the Public   $          314         $             3         $           310
  Total           $          314         $             3         $           310


                                         Allowance for
                  Gross Accounts         Uncollectible           Accounts
     FY 2009      Receivable             Accounts                Receivable, Net
Intragovernmental $              -       $             -         $               -
With the Public   $          327         $             3         $           324
  Total           $          327         $             3         $           324



(1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.


                                                Page 40 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)




Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2010 FNS’ capitalization threshold for property
and equipment is $25 thousand. FNS’ capitalization threshold for internal-use software is $100
thousand. FNS owns no buildings or land. FNS follows recognition and measurement criteria in
SFFAS No. 6 as amended by SFFAS No. 11 and 23, and USDA Departmental Regulation 2200-
002, dated December 24, 2003. At year end, balances for Property, Plant, and Equipment were as
follows:




                                                Page 41 of 53
                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)




 Note 6. Other Assets




FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity Credit
Corporation for the purchase of commodities.




                                               Page 42 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)




Note 7. Liabilities Not Covered by Budgetary Resources




 FNS’ “Intragovernmental-Other Liabilities” consist of Unfunded FECA Liability. FNS’ “With
 the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.




                                                Page 43 of 53
                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                 NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)

Note 8. Other Liabilities




                                               Page 44 of 53
FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
     NOTES TO THE FINANCIAL STATEMENTS
   (Amounts shown are in Millions except as noted)




                   Page 45 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                    NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




Note 9. Leases

Entity as Leasee:

Operating Lease (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ holds one operating lease that includes office space leased from
May 1, 2009 through April 30, 2019. The cost of the lease is $612 per year until May 1, 2014. From May 1, 2014,
through April 30, 2019; the office space annual rent is reduced to $393 per year. The lease may be renewed at the option
of the Government for one 5 year term with the Government having the right to terminate, in whole or in part, at anytime,
by giving at least 120 days notice in writing to the Lessor.

Future Payments Due:

                       Asset Category

Fiscal Year                Office Space

Year 2                     $ 357
Year 3                     $ 612
Year 4                     $ 612
Year 5                     $ 612
After 5 years              $1,965

Total future lease payments $4,158




                                                 Page 46 of 53
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                NOTES TO THE FINANCIAL STATEMENTS
                              (Amounts shown are in Millions except as noted)

Note 10. Intragovernmental Cost and Exchange Revenue




                                              Page 47 of 53
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)




FNS’ intragovernmental costs are exchange transactions made between FNS and another entity within the Federal
government. FNS cost with the public are exchange transactions made between FNS and a non-Federal entity. FNS’
intragovernmental exchange revenues are exchange transactions made between FNS and another entity within the Federal
government. FNS exchange revenues with the public are exchange transactions made between FNS and a non-Federal
entity.


Note 11. Program Costs By Segment




                                                Page 48 of 53
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)

Note 12. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $50 from the state option
Supplemental Nutrition Assistance Program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option Supplemental Nutrition Assistance Program. In this program,
States issue SNAP benefits through the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Supplemental Nutrition
Assistance Program.

States operating a state option Supplemental Nutrition Assistance Program utilize FNS’ SNAP
infrastructure. That is, they utilized electronic benefits transfer (EBT) issued benefits from FNS which
are transacted at FNS authorized SNAP retailers. These benefits are subsequently redeemed through the
Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2010, 3 States participated
in this program, which generated earned revenues of $50.

Note 13. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations




Note 14.Explanation of Differences between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNS’ FY 2009 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2009 actual numbers presented in the FY 2011
Budget of the United State Government (Budget). These differences are summarized below:

         Description                  Budgetary Resources                           Outlays
         2009 SBR                          $ 94,967                                 $77,844
Less: Expired Accounts not                      $9,259                                  $0
Included in Budget
Add: Parent Child                                   $10                                 $3
Relationship (NIFA)
Add: Differences due to                             $1                                  $1
Rounding
Budget of the U.S.                            $85,719                               $77,848
Government

                                                 Page 49 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)



The actual numbers for the FY President’s Budget have not yet been published as of FNS’ FY 2010
financial statements, and it is expected that the actual numbers will be published in February of the
following fiscal year and will be available on the website at www.whitehouse.gov.

Note 15. Undelivered Orders at the end of the Period

Budgetary resources obligated for undelivered orders as of September 30, 2010 and 2009 was $1.4 billion and $1.2
billion, respectively.



Note 16. Incidental Custodial Collections




FNS’ FY 2010 custodial activity represents all accounts receivable activity related to cancel year
appropriations for interest, fines & penalties assessed and collected. For example; civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of
FNS.




                                                  Page 50 of 53
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

Note 17. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

Resources Used to Finance Activities:                                                FY 2010            FY2009

Budgetary Resources Obligated

    Obligations Incurred                                                             $ 95,866       $ 79,495
    Less: Spending authority from offsetting collections and recoveries                  1,118            591
                                                                                      ------------    -----------
    Obligations net of offsetting collections and recoveries                            94,748         78,904
    Less: Distributed Offsetting Receipts                                                     -              -
                                                                                      ------------    -----------
    Net Obligations                                                                     94,748        78,904
                                                                                       ------------   -----------
    Other Resources
    Donations and forfeitures of property                                                    -               -
    Transfers in (out) without reimbursement                                                 -               -
    Imputed financing from costs absorbed by others                                       1,050            1,029
    Other                                                                                   -               -
                                                                                       ------------      -----------
    Net other resources used to finance activities                                       1,050           1,029

                                                                                         FY 2010         FY 2009


    Total resources used to finance activities                                             95,798          79,933

   Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                              (278)           (483)
   Resources that fund expenses recognized in prior periods                                    -               (1)
   Budgetary offsetting collections and receipts that do not
    affect net cost of operations
       Credit Program collections which increases liabilities for
       loan guarantees or allowances for subsidy                                               -                -
       Change in Unfilled Customer Orders                                                          -             -
       Decrease in exchange revenue receivable from the public                                  -                -
       Other                                                                                    -                -
   Resources that finance the acquisition of assets                                             -              (1)
   Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                          -               -
                                                                                          -----------    ------------
    Total resources used to finance items not part of the net cost
    of operations                                                                             (278)         (485)
                                                                                          -----------    -----------
        -

    Total resources used to finance the net cost of operations                             95,520        79,448
    Components of the Net Cost of Operations that will not require or

                                                  Page 51 of 53
                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                               NOTES TO THE FINANCIAL STATEMENTS
                             (Amounts shown are in Millions except as noted)

Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                  1               1
   Increase in environmental and disposal liability                                     -               -
   Upward/Downward re-estimates of credit subsidy expense                                -              -
   Increase in exchange revenue receivable from the public                            -               -
   Other                                                                             16            (67)
                                                                                ----------     ----------
-
  Total components of Net Cost of Operations that will require or
  generate resources in future periods                                             17             (66)
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                       2               6
  Revaluation of assets or liabilities                                                -                -
  Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                               -                -
     Cost of Goods Sold                                                              -                -
     Other                                                                           -                -
                                                                                -----------    ---------
-
    Total components of Net Cost of Operations that will not require
    or generate resources                                                            2             6
                                                                                 -----------    ---------
    -

    Total components of Net Cost of Operations that will not require
    or generate resources in the current period                                     19            (60)
                                                                                 ----------     ---------
    -

    Net Cost of Operations                                                      $ 95,539 $79,388
                                                                                          ======




                                             Page 52 of 53
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2010
                                       NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                          FOOD AND NUTRITION SERVICE
               REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                           STEWARDSHIP INVESTMENTS
                            (Amounts shown are in millions)


Human Capital

1. A. Supplemental Nutrition Assistance Program (SNAP).

     B. Program Expense                              2010         2009

        1. Employment and Training                    $63         $19

FNS’ human capital consists of employment and training (E&T) for the Supplemental Nutrition Assistance Program.
The E&T program requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 812,318 work registrants subject to the 3 - month SNAP participant limit and 1,503,052 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.


Nonfederal Physical Property

1.    A. Supplemental Nutrition Assistance Program

      B. Program Expense                            2010         2009

          1. ADP Equipment & Systems                 $41         $55


FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Supplemental Nutrition Assistance Program. The total SNAP
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.


2.    A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)

      B. Program Expense                            2010         2009

          1. ADP Equipment & Systems                 $17        $15


FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children.




                                                      Page 53 of 53
